Audit Report




OIG-14-044
SAFETY AND SOUNDNESS: OCC Needs to Ensure
Servicers Implement Amended Foreclosure Consent
Orders and Act on Identified Weaknesses
August 6, 2014




Office of
Inspector General
Department of the Treasury
Contents

Audit Report
  Background ................................................................................................ 3
      Audit Results.......................................................................................... 7
      Foreclosure Settlement Amounts Were Negotiated ......................................                  7
      Borrower Payment Amounts Were Based on the Independent Foreclosure
         Review Remediation Framework ……………..……… ...............................                              9
      OCC Relied on Servicers to Validate Borrowers Categorization .....................                     12
      OCC Did Not Object to Paying Agent and Paying Bank ................................                    15
      OCC Monitored the Payment Process and Noted Concerns .........................                         16
      Everbank and OneWest Payments .............................................................            18
      OCC’s Oversight of Foreclosure Prevention Actions Has Not
         Substantively Begun ...........................................................................     19
      GAO Foreclosure Review…………………………… ........................................ 20
  Recommendations ....................................................................................... 21

Appendices
  Appendix 1:         Objectives, Scope, and Methodology ......................................              25
  Appendix 2:         Cash Payment and Foreclosure Prevention Amounts Under the
                      Amended Foreclosure-Related Consent Orders .........................                   28
  Appendix 3:         Independent Foreclosure Review Payment Agreement Details
                      as Published by OCC and FRB ................................................           29
  Appendix 4:         Management Response .........................................................          30
  Appendix 5:         Major Contributors to This Report ...........................................          32
  Appendix 6:         Report Distribution ................................................................   33

Abbreviations and Acronyms
  EIC                 examiner in charge
  FRB                 Board of Governors of the Federal Reserve System
  GAO                 Government Accountability Office
  IFR                 independent foreclosure review
  JAMES               Joint Audit Management Enterprise System
  OCC                 Office of the Comptroller of the Currency
  OTS                 Office of Thrift Supervision
  QSF                 Qualified Settlement Fund
  RFR                 Request for Review
  SCRA                Servicemembers Civil Relief Act


                      OCC Needs to Ensure Servicers Implement Amended Foreclosure Consent                Page i
                      Orders and Act on Identified Weaknesses (OIG-14-044)
         This page intentionally left blank




OCC Needs to Ensure Servicers Implement Amended Foreclosure Consent   Page ii
Orders and Act on Identified Weaknesses (OIG-14-044)
                                                                                       Audit
OIG
The Department of the Treasury
                                                                                       Report
Office of Inspector General




                       August 6, 2014

                       Thomas J. Curry
                       Comptroller of the Currency

                       This report presents the results of our audit of the Office of the
                       Comptroller of the Currency’s (OCC) oversight of amended
                       foreclosure consent orders that OCC, in conjunction with the Board
                       of Governors of the Federal Reserve System (FRB), issued to major
                       mortgage servicers.1 These orders amended foreclosure related
                       consent orders originally issued in April 2011 against these major
                       mortgage servicers for unsafe and unsound practices in residential
                       mortgage servicing and foreclosure processing.2 The amended
                       orders required that the servicers cease work on the independent
                       foreclosure reviews (IFRs) required by the original orders and
                       provide relief to potentially harmed borrowers in the form of cash
                       payments and foreclosure prevention actions.

                       Our audit objectives were to: (1) report on the circumstances and
                       processes used to determine that the foreclosure consent orders
                       issued in April 2011 needed to be amended, including how the new

1
    In February 2013, amended consent orders were entered into with Bank of America, N.A.; Citibank,
    N.A.; Goldman Sachs; HSBC Bank USA, N.A.; JPMorgan Chase Bank, N.A.; MetLife Bank, N.A.;
    Morgan Stanley; PNC Bank, N.A.; U.S. Bank National Association and U.S. Bank National Association
    ND; Wells Fargo Bank, N.A.; Aurora Bank FSB; Sovereign Bank, N.A.; and, SunTrust Banks, Inc.,
    SunTrust Bank and SunTrust Mortgage, Inc. GMAC/Ally entered into an amended consent order with
    FRB in July 2013. Similarly, Everbank entered into an amended consent order with OCC in August
    2013.
2
    In September 2013, we reported the results of our audit of OCC’s oversight of the April 2011
    foreclosure-related consent orders. In that audit, we found that OCC had developed a framework to
    monitor servicers’ corrective action plans and oversee the IFR process. However, we noted that OCC
    oversight needed strengthening. Specifically, OCC had not performed comprehensive direct testing of
    individual IFRs to assess whether independent consultants were performing the reviews objectively,
    consistently, and in compliance with OCC guidance. In addition, improvements were needed in the
    documentation of various aspects of OCC oversight. OIG, Safety and Soundness: Improvement
    Needed in OCC’s Oversight of Foreclosure Related Consent Orders (OIG-13-049; Sep. 9, 2013)

                       OCC Needs to Ensure Servicers Implement Amended Foreclosure Consent       Page 1
                       Orders and Act on Identified Weaknesses (OIG-14-044)
                       settlement amounts were derived; and (2) assess OCC's oversight
                       of servicers' compliance with the amended foreclosure consent
                       orders, including the servicers' categorization of the population of
                       borrowers due payment, the payment of funds from a Qualified
                       Settlement Fund (QSF),3 and the servicers' loss mitigation or other
                       foreclosure prevention actions.

                       We conducted our fieldwork from April 2013 through December
                       2013. We interviewed OCC headquarters management and
                       examiners-in-charge (EIC) at select servicers subject to the
                       amended consent orders. In addition, we reviewed documentation
                       of OCC’s development of the amended consent orders and
                       oversight of the payment process. Appendix 1 contains a more
                       detailed description of our audit objectives, scope, and
                       methodology. Concurrent with our review, the Government
                       Accountability Office (GAO) reviewed the amended consent order
                       process. We coordinated our efforts with GAO to minimize the
                       resource impact on OCC and to avoid duplication of effort.

                       In brief, we found that OCC pursued the amendment of the original
                       foreclosure related consent orders to facilitate more timely relief to
                       borrowers potentially harmed during the foreclosure process. We
                       found the cash payment and foreclosure prevention figures in the
                       amended consent orders were negotiated amounts with the
                       servicers that had limited analytical support. We also found that
                       OCC provided oversight of servicers’ borrower categorization and
                       the payment processes. This oversight identified weaknesses and
                       concerns with both processes of which OCC is continuing to
                       address the concerns with the payment process. We noted that
                       OCC oversight of servicers’ foreclosure prevention actions has not
                       yet substantively begun.

                       We are recommending that OCC (1) continue to work to ensure
                       that errors and concerns that it identified in the payment process
                       are addressed; (2) finalize its determination on the disposition of
                       funds remaining in the QSFs after the distribution is complete;
                       (3) ensure servicer system weaknesses and data limitations
                       identified during OCC’s validation work are addressed in the

3
    QSFs were established by the amended consent orders from which payments to potentially harmed
    borrowers are made. As discussed in more detail in footnote 9, there are four QSFs for the amended
    consent orders.

                       OCC Needs to Ensure Servicers Implement Amended Foreclosure Consent       Page 2
                       Orders and Act on Identified Weaknesses (OIG-14-044)
             corrective action plans developed by the servicers and that these
             corrective action plans are implemented; and (4) implement
             processes to monitor the sufficiency of foreclosure prevention
             measures taken by servicers subject to the amended consent
             orders.

             Management Response In a written response, included as
             appendix 4, OCC stated it will continue to (1) provide oversight
             including addressing errors and concerns identified in the payment
             process until the QSFs are closed and (2) discuss options for the
             use of residual QSF funds and plans to have a decision in the near
             future. OCC stated that it plans to assess servicer system
             weaknesses and data limitations, including those identified by the
             independent consultants and their examiners, during testing of
             management information systems and reporting. Completion of this
             testing is expected by November 30, 2014. OCC also stated that
             that it would complete testing of the effectiveness of servicers’
             loss mitigation and foreclosure prevention activities by
             November 30, 2014.

             OIG Comment We consider the actions taken and planned by OCC
             as responsive to our recommendations. However, OCC will need to
             record planned completion dates for planned actions in the Joint
             Audit Management Enterprise System (JAMES), the Department of
             the Treasury’s audit recommendation tracking system.

Background
             In April 2011, OCC, the former Office of Thrift Supervision (OTS),
             and FRB issued foreclosure related consent orders against 14 major
             mortgage servicers (8 supervised by OCC, 4 supervised by OTS,
             and 2 by FRB) for unsafe and unsound practices in residential




             OCC Needs to Ensure Servicers Implement Amended Foreclosure Consent   Page 3
             Orders and Act on Identified Weaknesses (OIG-14-044)
                        mortgage servicing and foreclosure processing.4 These unsafe and
                        unsound practices were identified during a horizontal review5
                        performed in 2010. FRB issued similar consent orders against two
                        other servicers at a later date.6 Pursuant to these orders, the
                        servicers engaged independent consultants to perform IFRs to
                        identify and remediate financial injury to borrowers who were in
                        the foreclosure process in 2009 and 2010. These reviews were
                        performed during 2011 and 2012. The consent orders also required
                        that servicers develop and implement various corrective action
                        plans to address the unsafe and unsound practices that had been
                        identified.

                        OCC officials told us that, as of November 2012, the independent
                        consultants, hired to perform the IFRs, had received about
                        $2 billion in compensation from the servicers, but no borrower
                        remediation for financial injury had been made. OCC officials
                        concluded that the IFR process was taking longer than anticipated
                        and delaying the compensation to harmed borrowers. Working in
                        conjunction with FRB, OCC began negotiating changes to the
                        original consent orders with the servicers. In January 2013, new
                        terms were agreed to by 11 of the 14 servicers subjected to the
                        original consent orders (10 supervised by OCC and 1 supervised by
                        FRB) and amended orders were entered into with the participating
                        servicers in February 2013. FRB also entered into amended consent
                        orders with the two servicers that had been issued foreclosure
                        consent orders after April 2011.7



4
    OCC took action against eight national bank servicers: Bank of America, N.A.; Citibank, N.A.; HSBC
    Bank USA, N.A.; JPMorgan Chase Bank, N.A.; MetLife Bank, N.A.; PNC Bank, N.A.; U.S. Bank
    National Association and U.S. Bank National Association ND; and Wells Fargo Bank, N.A. OTS took
    action against four federal savings association servicers: Aurora Bank FSB; Everbank and its thrift
    holding company, EverBank Financial Corp.; OneWest Bank, FSB and its holding company IMB
    HoldCo LLC; and, Sovereign Bank. FRB took action against the holding companies for the national
    banks mentioned above and two other financial institutions under their supervision: Ally Financial,
    Inc., and SunTrust Banks, Inc. With the transfer of OTS’ oversight of federal savings associations to
    OCC in July 2011 pursuant to Public Law 111-203, OCC now supervises the four federal savings
    association servicers, including enforcement of the OTS-issued consent orders.
5
    The term horizontal review refers to a bank examination in which the regulator simultaneously
    performs the same examination procedures across a group of institutions.
6
    FRB took action against Goldman Sachs Group, Inc., on September 1, 2011, and Morgan Stanley on
    April 2, 2012.
7
    The two additional servicers were Goldman Sachs Group, Inc., and Morgan Stanley.

                        OCC Needs to Ensure Servicers Implement Amended Foreclosure Consent        Page 4
                        Orders and Act on Identified Weaknesses (OIG-14-044)
                        For the participating servicers, the new terms required them to
                        immediately cease most IFR activity, make cash deposits to a QSF
                        established to make payments to potentially harmed borrowers,
                        and initiate a range of foreclosure prevention actions. OCC officials
                        told us that the totals for cash payments to potentially harmed
                        borrowers and foreclosure prevention actions were negotiated with
                        the servicers.

                        Under the amended orders, servicers were required to categorize
                        borrowers according to the most likely type of potential financial
                        harm suffered as a result of the servicer’s foreclosure practices.
                        These categorizations were called “the waterfall” by the regulators.
                        The category in which a potentially harmed borrower was placed
                        determined the cash payment amount. OCC and FRB developed the
                        categories and associated payment amounts. OCC officials told us
                        that if a borrower fell into more than one category, the borrower
                        was placed in the category that yielded the highest payment.

                        The servicers engaged Rust Consulting, Inc. (Rust), as the paying
                        agent to manage the distribution process.8 Rust was responsible for
                        setting up and administering the QSFs and performing operational
                        activities to distribute cash payments to eligible borrowers.9 These
                        operational activities included issuing and reissuing checks,
                        following up on undeliverable mail, providing a call center and
                        customer support, and providing activity reporting. Rust engaged
                        The Huntington National Bank (Huntington) as the paying bank to
                        hold the QSFs’ deposits and provide check-clearing services for
                        payments made from the QSFs. Direct payments to potentially
                        harmed borrowers began in April 2013.




8
    Rust provides project management, data management, notification, contact center, claims processing
    and distribution reporting to customers in the public, legal, and business sectors.
9
    There are four QSFs for the amended consent orders: QSF1 for the OCC- and FRB-supervised
    institutions detailed in footnote 1 as entering into amended consent orders in February 2013; QSF2
    for the FRB-supervised institutions detailed in footnote 6; and QSF3 for FRB-supervised Ally Financial
    Inc. A separate QSF for EverBank is being administered by Epiq Class Action & Claims Solutions, Inc.

                        OCC Needs to Ensure Servicers Implement Amended Foreclosure Consent         Page 5
                        Orders and Act on Identified Weaknesses (OIG-14-044)
                          The amended consent orders set guiding principles for servicers to
                          follow in meeting their foreclosure prevention action obligation.10
                          The orders also include those activities for which servicers may
                          receive credit, such as loan modifications, short sales, interest rate
                          modifications, and deficiency waivers. In addition, the orders allow
                          servicers to alternatively meet their foreclosure prevention
                          obligation through additional cash payments to the QSFs, or cash
                          payments or resource commitments to borrower counseling or
                          education, subject to OCC non-objection.11

                          In recognition of the cash payments and foreclosure prevention
                          commitments made by the servicers in the amended consent
                          orders, OCC agreed not to assess civil money penalties against the
                          servicers for past mortgage servicing- or foreclosure-related
                          practices addressed by the original consent orders or findings of
                          the IFR process. However, the amended consent orders specifically
                          state that OCC reserves the right to take action against servicers
                          for non-IFR related violations of the original consent orders or for
                          the failure of the servicer to meet the terms of the amended
                          consent orders.

                          Two of the three servicers that did not originally agree to the
                          amended orders — EverBank and OneWest — are supervised by
                          OCC. OCC officials told us that these two servicers did not agree
                          for a variety of reasons, including, among others, the belief that it
                          was too costly and because their reviews were further along. On
                          August 23, 2013, OCC announced that EverBank had agreed to an
                          amendment of its consent order to make direct cash payments and
                          provide other foreclosure relief. OCC officials told us that OneWest
                          is continuing to perform the IFR reviews and is projecting to

 10
      The amended consent orders note that the participating banks’ foreclosure prevention actions should
      reflect the following guiding principles: (a) preference should be given to activities designed to keep
      the borrower in the home; (b) foreclosure prevention actions should emphasize affordable,
      sustainable, and meaningful home preservation actions for qualified borrowers; (c) foreclosure
      prevention actions should otherwise provide significant and meaningful relief or assistance to
      qualified borrowers; and (d) foreclosure prevention actions should not disfavor a specific geography
      within or among states, nor disfavor low and/or moderate income borrowers, and not discriminate
      against any protected class of borrowers.
11
      For those participating servicers that requested to satisfy their foreclosure prevention commitments
      in this manner, OCC has only issued non-objections to servicers requesting to make additional cash
      payment to the QSFs or to U.S. Department of Housing and Urban Development-approved borrower
      counseling organizations.

                          OCC Needs to Ensure Servicers Implement Amended Foreclosure Consent          Page 6
                          Orders and Act on Identified Weaknesses (OIG-14-044)
                          complete the IFR process by the end of summer 2014. OneWest
                          commenced issuing remediation checks in March 2014.

Audit Results
                          Foreclosure Settlement Amounts Were Negotiated
                          As noted previously, by November 2012, OCC officials had
                          concluded that the IFR process was taking longer than anticipated
                          and delaying the compensation of affected borrowers. Working in
                          conjunction with FRB, OCC contacted the servicers to solicit
                          interest in a settlement and discuss its structure. These discussions
                          resulted in an initial agreement that the potential settlement would
                          require servicers to make cash payments to borrowers and fund
                          foreclosure prevention activities. Negotiations with servicers over
                          the cash payment and foreclosure prevention amounts continued
                          during November and December 2012.

                          In January 2013, new terms were finalized with 11 of the 14
                          servicers subject to the original consent orders (10 supervised by
                          OCC and 1 supervised by FRB) requiring the servicers to make cash
                          payments to borrowers totaling $3.39 billion and to fund nearly
                          $5.4 billion in foreclosure prevention activities.12 Amended orders
                          executing the change in terms were entered into in February 2013
                          with the participating servicers. A breakout of the cash payment
                          and foreclosure prevention amounts by servicer is provided in
                          Appendix 2.

                          OCC officials told us that a number of factors informed their
                          thinking when negotiating the cash payment amount, including
                          OCC’s:

                                 Estimates of total expenditures that would be required to
                                  complete the IFR process.

                                 Estimates of reserves that the servicers had set up related to
                                  the IFR process.


12
     In response to our inquiry about the potential for a shortfall in a QSF, OCC officials told us that the
     amended consent order payment process was designed to preclude the possibility of a shortfall;
     sufficient funds were deposited to cover the total amount of cash payment to borrowers.

                          OCC Needs to Ensure Servicers Implement Amended Foreclosure Consent           Page 7
                          Orders and Act on Identified Weaknesses (OIG-14-044)
      Estimates of the range of payouts that may have occurred if
       the IFR process was continued to completion.

OCC’s and FRB’s estimates for payouts that may have occurred if
the IFR process was continued to completion ranged from $934
million to $3.7 billion. A key driver of these estimates was the
estimated rate of financial harm that existed in the IFR population.
The low end of the estimated payout amount ($934 million) was
based on a 6.5 percent rate of financial harm. OCC officials told us
that this rate was based on the overall rate of errors with financial
harm reported by the independent consultants conducting the IFR
at the time the settlement was being negotiated; however, this rate
was based on incomplete IFR data that had not been validated. In
fact, as of December 2012 when the cash payout figures were
being negotiated, less than 400 of 654,000 planned reviews had
been completed. OCC officials told us that these results reinforced
how much work remained and that the regulators thereafter began
negotiations for a settlement.

The higher end of the range of potential settlement payments ($3.7
billion) was sufficient to cover a 26 percent rate of harm, or four
times the average rate (6.5 percent) of financial harm reported by
the independent consultants. OCC officials told us that the $3.39
billion cash payment was a negotiated amount and the exercise
undertaken to determine whether it was the “right” amount was
based on analysis of the factors noted above, but not an exercise
of mathematical precision.

Similarly, OCC officials told us that the $5.4 billion in foreclosure
prevention actions was also a negotiated figure for which there
was no analytical basis. It was a goal established to encourage
servicers to continue promoting loss mitigation efforts with
borrowers. The amended consent orders contain guidelines for
crediting foreclosure prevention actions and also allow a $7 to $10
credit for each $1 contributed to borrower counseling or education
or provided as an additional cash payment to the QSFs. OCC




OCC Needs to Ensure Servicers Implement Amended Foreclosure Consent   Page 8
Orders and Act on Identified Weaknesses (OIG-14-044)
                         officials noted that borrowers who benefit from these actions could
                         still seek relief under the National Mortgage Settlement.13

                         Borrower Payment Amounts Were Based on the
                         Independent Foreclosure Review Remediation Framework
                         OCC and FRB determined how the negotiated cash payment
                         amount would be distributed across the population of potentially
                         harmed borrowers and documented the result in a joint payment
                         distribution plan. The category in which the potentially harmed
                         borrower was placed determined the amount of the cash payment
                         to be made. OCC and FRB developed the categories and associated
                         payment amounts using the financial remediation framework14
                         issued during the IFR process as a starting point. OCC officials told
                         us that the payment amounts were also determined in
                         consideration of the overall amount of proceeds deposited to the
                         QSF, pursuant to the agreement with the participating servicers.
                         The IFR remediation framework was replaced by the new payment
                         agreement by consolidating the number of categories and
                         establishing payment amounts for the categories. The resulting
                         categories and amounts used in the payment agreement are
                         presented in appendix 3.

                         For some categories, the payment amounts in the payment
                         agreement were the same or similar as the payouts from the
                         original financial remediation framework while, for other categories,
                         payment amounts were significantly different. For example,




13
     The National Mortgage Settlement is a settlement between the state attorneys general, along with
     other federal agencies, and the five leading bank mortgage servicers resulting in approximately
     $25 billion dollars in monetary sanctions and relief, and the reform of mortgage servicing practices.
     The five servicers are Ally Financial, Inc./General Motors Acceptance Corporation; Bank of America,
     N.A.; Wells Fargo, N.A.; Citibank, N.A.; and JPMorgan Chase, N.A.
14
     OCC and FRB, “Financial Remediation Framework for Use in the Independent Foreclosure Review,”
     June 21, 2012. This framework was to be used by the independent consultants to determine
     remediation for completed IFRs where there were findings of financial harm due to servicer error.

                         OCC Needs to Ensure Servicers Implement Amended Foreclosure Consent         Page 9
                         Orders and Act on Identified Weaknesses (OIG-14-044)
                         borrowers in the Servicemember Civil Relief Act (SCRA)15 category
                         were to receive the same payment for foreclosure under the
                         financial remediation framework and the payment plan ($125,000
                         plus equity). OCC officials told us that the independent consultants
                         had largely completed the reviews for SCRA borrowers and had
                         made harm determinations, which supported full payouts for
                         harmed SCRA borrowers under the Framework. By contrast, for
                         borrowers who were foreclosed on prior to the expiration of written
                         trial modification plans while performing as required during the trial
                         period, the financial remediation framework provided for a top
                         payment of $125,000 subject to specific adjustments. However,
                         such borrower would receive a payment of $25,000 under the
                         payment agreement or $50,000 if that borrower had submitted a
                         Request for Review (RFR) under the IFR process.16 According to
                         OCC officials, OCC and FRB decided that borrowers, who had
                         submitted a RFR under the IFR process, would be paid a higher
                         amount than those borrowers who did not submit an RFR. The
                         table, on the next page, provides a more detailed comparison of
                         these two examples.




15
     The Servicemembers Civil Relief Act, formerly known as the Soldiers’ and Sailors’ Civil Relief Act
     (SSCRA), is a federal law that provides legal and property protections for military members while
     they are on active duty and less able to timely respond to and participate in proceedings. It covers a
     broad range of issues including rental agreements, security deposits, prepaid rent, eviction,
     installment contracts, credit card interest rates, mortgage interest rates, mortgage foreclosure, civil
     judicial proceedings, automobile leases, life insurance, health insurance and income tax payments.
     The types of relief provided under the law include: limitations on the rate of interest for debts
     incurred before military service; protection against default judgments, evictions, foreclosures, and
     repossessions of property; and the ability to terminate residential and automobile leases due to
     military orders.
16
     The original foreclosure related consent orders required that, as part of the IFR process, each servicer
     establish a process for borrowers who believed they had been financially harmed by the servicer’s
     foreclosure related deficiencies to make submissions to be considered for remediation. These
     submissions were known as Request for Reviews.

                         OCC Needs to Ensure Servicers Implement Amended Foreclosure Consent         Page 10
                         Orders and Act on Identified Weaknesses (OIG-14-044)
Table: Comparison of Select Categories Payments under the IFR Remediation Framework (original
consent orders) and the Payment Agreement (amended consent orders)
     Financial Remediation Framework (June 2012)1                     Payment Agreement (April 2013)2
                                                                                  Foreclosure
    Category                   Remedy           Payment           Category           Stage        Payment
SCRA                   Rescind foreclosure       $15,000    Servicer foreclosed Rescinded            $15,000
                       when possible; pay                   on borrower
                       $15,000, correct                     eligible for SCRA
                       servicer record for                  protection
                       any improper
                       amounts, and correct
                       credit reports
                       If rescission of         $125,000                        Completed         $125,000
                       foreclosure is not            plus                                              plus
                       possible; pay               equity                                            equity
                       $125,000 plus
                       equity, remedy
                       deficiency, and
                       correct credit reports
Error after Trial     Rescind foreclosure      $15,000    Servicer completed  Rescinded    $6,000 for
Modification          when possible and                   foreclosure on                   borrowers
Approved - servicer   provide trial-period                borrower who was                      that
foreclosed on         plan; pay $15,000,                  performing all                  requested a
borrower prior to     correct servicer record             requirements of                    review;
expiration of         for any improper                    the written trial-               $3,000 for
written trial-period  amounts, and correct                period plan                        all other
plan while borrower   credit reports.                                                      borrowers
was performing all    If rescission of        $125,000                       Completed     $50,000 for
requirement of the    foreclosure is not             plus                                     borrowers
written trial-period  possible; pay               equity,                                             that
plan                  $125,000 plus           less offset                                   requested a
                      equity, remedy                                                              review:
                      deficiency for any                                                   $25,000 for
                      improper amounts,                                                          all other
                      and correct credit                                                      borrowers
                      reports. Servicer may
                      offset missed and
                      unpaid principal and
                      interest payments and
                      property taxes paid on
                      behalf of the
                      borrower, subject to
                      certain limitations.
1
  Source: OCC Website, News Release NR 2012-94, http://www.occ.treas.gov/news-issuances/news-
releases/2012/nr-ia-2012-94.html
2
  Source: OCC Website, News Release NR 2013-60 , http://www.occ.treas.gov/news-issuances/news-
releases/2013/nr-ia-2013-60a.pdf


                       We noted that the payment amounts to borrowers were based on a
                       number of subjective decisions that did not seem to be directly
                       correlated to the harm that they may have suffered as a result of
                       being in the foreclosure process. OCC officials told us that it was

                       OCC Needs to Ensure Servicers Implement Amended Foreclosure Consent          Page 11
                       Orders and Act on Identified Weaknesses (OIG-14-044)
decided to pay borrowers in the SCRA category and the Borrower
Not in Default category the same amounts as provided by the IFR
remediation framework. Once that decision was made, the
payment amounts for the other categories were subjectively
determined based on the amounts available in the QSFs. In this
regard, OCC officials told us that the relative severity of potential
harm reflected in each category of the original framework was
taken into account. Additionally, the regulators believed it
reasonable that higher amounts would be paid to RFR filers than
those who did not request a review. The officials told us that the
method for determining the category payment amounts was “more
of an art than a science.” The amounts were based on the
consideration of the factors discussed above and included input
from community groups regarding the relative payment amounts for
each category and payments to RFR versus non-RFR borrowers.
Also, borrowers do not relinquish their right to take legal action
against the servicers by accepting the compensation.

OCC officials told us that servicers were not allowed to offset
other general settlement payments, such as a payment made from
the National Mortgage Settlement “Borrower Payment Fund”
against the amount due to the potentially harmed borrower under
the amended consent orders. However, consistent with the IFR,
servicers were allowed to offset a prior remediation payment by
the servicer to the borrower if the previous payment was
determined under a prior litigation settlement and only if it covered
the exact same harm to the borrower identified under the amended
consent order. For example, remediation payments under the
amended consent order for certain harmed borrowers in the SCRA
category were reduced by the amount previously paid by the
servicer to those borrowers for the same violation of law in
connection with other settlements.

OCC Relied on Servicers to Validate Borrowers
Categorization
In January 2013, OCC provided servicers with instructions for
categorizing borrowers into 11 categories according to the most
likely type of potential financial harm suffered as a result of the
servicer’s foreclosure practices. This categorization was primarily a
data driven exercise. Specifically, servicers used computer

OCC Needs to Ensure Servicers Implement Amended Foreclosure Consent   Page 12
Orders and Act on Identified Weaknesses (OIG-14-044)
programs to analyze their respective servicing system data to
categorize the affected borrowers. After OCC gained comfort
through the activities described below that the borrower
categorization was satisfactory, the servicers provided the
categorization files to the paying agent.

OCC officials told us that OCC headquarters personnel and resident
examination team members maintained an ongoing dialogue with
servicer personnel to address questions and concerns throughout
the categorization process. OCC also provided written validation
procedures for OCC resident examination teams to follow when
validating servicers’ categorizations. These written procedures
called for the examiners to gain and document an understanding of
the assumptions and processes used by the servicers to categorize
borrowers, identify gaps, and test the process with a goal of
verifying that the categorization was reasonably accurate.

Our review of validation procedures for 5 of the 10 servicers under
OCC supervision found documentation to support that OCC
examiners conducted oversight of the servicers’ categorization,
gained an understanding of the servicers’ assumptions and slotting
processes, identified gaps, and required corrective action.
However, we noted that OCC examiners performed only a limited
amount of testing (reviewing loan documentation) of the
categorization. Independent consultants completed the bulk of their
reviews resulting in findings for the categories involving SCRA
eligible borrowers and borrowers not in default. For all other
categories, OCC leveraged the work of servicers’ internal groups
such as internal audit, and compliance or risk management
functions, to gain an understanding of the programs that generated
the borrower categorization and to perform the testing. OCC
examiners told us that this strategy of leveraging servicer internal
processes and testing, performed subject to regulator oversight,
was necessary to meet the tight timeframes that OCC had set for
validation and payment. OCC officials told us that this is consistent
with normal practice where regulators leverage the work performed
by banks’ internal audit and risk management functions and
validate the process and results. These officials also told us that
they gained comfort in the internal testing through ongoing
meetings, asking specific questions, and reviewing the results of
the work performed by internal audit.


OCC Needs to Ensure Servicers Implement Amended Foreclosure Consent   Page 13
Orders and Act on Identified Weaknesses (OIG-14-044)
Documentation summarizing OCC’s oversight of the borrower
categorization process noted concerns and limitations with some
processes and certain of the servicer system data from which the
categorization was derived. This documentation detailed the nature
of the concerns identified during the validation process. In cases
where there were data deficiencies, OCC required adjustments to
the categorization, such as requiring the servicer to place
borrowers in a higher borrower payment category, to address these
concerns. Examples of issues noted at individual servicers follow.

      The identification of deficiencies in one servicer’s bankruptcy
       data required that over 6,000 borrowers, originally excluded
       by the bank, be added to the population.

      Errors with the running of categorization programs initially
       resulted in thousands of loans not being properly categorized
       at another servicer.

      A population of potentially harmed borrowers from a
       subsidiary of a servicer had not been included in the
       servicer’s in-scope population and had to be added.

      Limitations identified in a servicer’s system data required
       over 10,000 loans to be added to the servicer’s in-scope
       population.

      Limitations identified in servicer system data inhibited the
       ability of a servicer to determine which category some
       borrowers’ belonged in. Accordingly, these borrowers were
       placed into categories with higher cash payout amounts.

The resident OCC examination teams documented their overall
conclusions regarding the borrower categorization in their
workpapers. In general, these teams concluded that the servicers’
categorization of borrowers, after necessary adjustments were
made, was satisfactory. However, OCC officials noted that the
borrower categorization could never be 100 percent precise for 4.2
million borrowers. For example, one OCC official told us while he
could not assure that all loans were precisely put in categories,
every effort was made to slot borrowers as fairly as possible. At
one servicer, OCC examiners concluded that the “final waterfall

OCC Needs to Ensure Servicers Implement Amended Foreclosure Consent   Page 14
Orders and Act on Identified Weaknesses (OIG-14-044)
represents a reasonable representation of both the in scope
population and request for review sub portfolio…“but noted
“…there is a degree of inaccuracy in the waterfall based on the
testing and the system of record data limitations.”

OCC Did Not Object to Paying Agent and Paying Bank
The servicers hired Rust as the paying agent. In turn, Rust engaged
Huntington as the paying bank. The paying agent is responsible for
distributing payments to the borrowers identified in each servicer’s
categorization file. The paying bank maintains deposit accounts for
the payment funds and provides check-clearing services to
facilitate the payment process.

OCC issued a letter of no supervisory objection for each servicer’s
statement of work (SOW) with Rust. OCC officials told us that it is
OCC standard practice to issue a letter of no supervisory objection
versus an approval of decisions of this nature. Although no letter
was issued, an internal OCC email showed that OCC did not object
to Rust’s engagement of Huntington. While OCC had not
established specific criteria to evaluate the qualifications and
internal controls of the paying agent or paying bank, OCC officials
told us that their acceptance of these entities was based on a
number of factors, including expediency.

      Rust had been working with the 14 participating servicers
       since the fall of 2011 as the IFR Administrator for the IFR
       process. The servicers were familiar with Rust’s caliber of
       work and keeping Rust as agent meant Rust could start
       working right away without delaying the process. Further,
       the servicers and Rust had existing contracts under the IFR
       and it would be more expedient to revise existing contracts
       to reflect the scope of Rust’s work under the amended
       consent orders than initiate a new contract with a different
       company, which would require each of the 14 participating
       servicers to subject the new company to their individual
       internal procurement processes.

      Rust was familiar with the IFR process and customer related
       data, and had corresponded with borrowers during the IFR
       process. Borrowers were already familiar with Rust as


OCC Needs to Ensure Servicers Implement Amended Foreclosure Consent   Page 15
Orders and Act on Identified Weaknesses (OIG-14-044)
                               administrator following the advertising and branding
                               campaign surrounding the IFR.

                              Rust had experience in class action settlements and is the
                               administrator for the National Mortgage Settlement.

                              Rust had an existing working relationship with Huntington.

                              OCC regulates Huntington and had access to information
                               concerning Huntington through its supervisory channels.

                        Those servicers who agreed to the settlement in January 2013
                        deposited the required cash payment amounts into the first QSF
                        (QSF1) at Huntington. QSF2, a separate account at Huntington, is
                        for FRB-regulated institutions Morgan Stanley and Goldman Sachs.
                        QSF 3, a separate account at Huntington, is for FRB-regulated
                        GMAC/Ally. After accounting for adjustments made as a result of
                        the validation of the servicers’ borrower categorization (which in
                        some cases required increased payments by a participating servicer
                        above the amount specified under the amended consent orders),
                        servicers deposited $3.418 billion into QSF1 and $249 million into
                        QSF2. As of May 2, 2014, $469.9 million remained in QSF1 and
                        $33.4 million in QSF2.17

                        OCC Monitored the Payment Process and Noted
                        Concerns
                        After the borrower categorization process was completed, the
                        servicers transmitted borrower categorization data files to OCC for
                        review and to Rust to execute the payment process. OCC officials
                        told us that their oversight of the payment process included:

                              A reconciliation of (1) borrower categorizations prepared by
                               the servicers subject to OCC oversight and transmitted to
                               OCC to (2) those borrower categorizations received by Rust
                               directly from the servicers. (This was done to ensure that
                               Rust used the categorizations prepared under OCC
                               oversight.)


17
     As QSF 3 was an account for FRB-regulated GMAC/Ally, we did not inquire as to the amounts
     deposited and remaining.

                        OCC Needs to Ensure Servicers Implement Amended Foreclosure Consent   Page 16
                        Orders and Act on Identified Weaknesses (OIG-14-044)
      An OCC/FRB on-site visit to review controls at Rust and a
       third-party check printer hired by Rust.

      Frequent phone calls and email exchanges where Rust
       provided OCC with status updates on payment activity and
       the funds including activity reports related to check issuance
       and cashing, undeliverable mail, skip tracing, and borrower
       complaints. During these calls, OCC officials said they also
       addressed paying agent questions.

      Periodic OCC reconciliation of the QSF fund balances
       maintained on OCC internal spreadsheets to Huntington’s
       account statement.

We reviewed documentation related to OCC monitoring of the
payment process, including OCC’s waterfall reconciliation and
OCC’s October 2013 QSF reconciliation, results of OCC’s on-site
visit related to Rust and the third-party check printer, records of
daily calls, copies of activity reports, borrower complaint logs, and
OCC correspondence with the payment agent. This documentation
showed that OCC’s monitoring was operating as OCC officials had
described to us.

The documentation also revealed the following:

      Payment activity reports, as of May 5, 2014, showed that
       the initial check mailing had an undeliverable rate of 10.6
       percent. Thirty-one (31) percent of the checks originally
       issued needed to be reissued for reasons such as name or
       address change, to replace a lost or damaged check, or to
       replace a check that had not been cashed or deposited
       before its void date.

      These reports showed that, as of April 25, 2014,
       approximately 17 percent of the initial 3.9 million checks had
       not been cashed.

      As of July 31, 2013, over 3 months after the initial check
       mailings of approximately 4 million payments, Rust logs
       contained approximately 1,000 borrower complaints. We
       noted that many borrower complaints involved the failure to

OCC Needs to Ensure Servicers Implement Amended Foreclosure Consent   Page 17
Orders and Act on Identified Weaknesses (OIG-14-044)
                                 receive an expected check, incorrect addresses and borrower
                                 information, or concerns with the process to change
                                 addresses and borrower information.

                                OCC identified certain material errors and weaknesses in the
                                 payment process by Rust.18

                         OCC officials are working with the paying agent to address these
                         limitations and weaknesses.

                         OCC has not yet made a determination regarding the disposition of
                         any residual amounts in the QSFs. OCC’s distribution plan notes
                         that at the end of the distribution process in December 2015, any
                         uncashed checks will be added to the undistributed pool. The funds
                         in the undistributed pool will not be returned to the servicers.

                         Everbank and OneWest Payments
                         Everbank agreed to amend their original foreclosure related consent
                         order in August 2013; 7 months after terms were agreed to by the
                         other servicers. Everbank originally decided to continue with the
                         IFR process; however, OCC officials told us that issues related to
                         testing borrower fees threatened to extend the reviews
                         significantly and further prolonging the time to provide
                         compensation to borrowers.

                         Everbank was required to make a cash payment of $39.9 million in
                         connection with their amended consent order. According to OCC,
                         this payment amount was based on the actual findings by the
                         independent consultant. The amended consent order also contained
                         a foreclosure prevention amount of $44.4 million, which Everbank
                         agreed to satisfy by making a $6.3 million payment to
                         organizations approved by the U.S. Department of Housing and
                         Urban Development.

                         Everbank selected Epiq Class Action & Claims Solutions, Inc.
                         (Epiq), to be its paying agent, subject to OCC non-objection.19 Epiq
                         will also use Huntington as the paying bank. OCC officials told

18
     The nature of the identified material errors and weaknesses are subject to litigation and therefore are
     not discussed in this report.
19
     Epiq is a provider of class action and mass litigation case management services.

                         OCC Needs to Ensure Servicers Implement Amended Foreclosure Consent         Page 18
                         Orders and Act on Identified Weaknesses (OIG-14-044)
GAO that Everbank’s consent order distribution plan was finalized
in November 2013. OCC officials told us that, as of July 22, 2014,
30,892 out of 32,574 initial checks had been mailed. Another
1,495 checks were to be mailed July 29, 2014. The other 187
initial checks will be mailed out once various issues are resolved.

OCC officials also told us that OneWest; the OCC supervised
institution that elected to continue the IFR process, expects to
complete the IFR process by the end of summer 2014 and
commenced making payments to harmed borrowers in March
2014.

OCC’s Oversight of Foreclosure Prevention Measures Has
Not Substantively Begun
As discussed above, the amended consent orders require the
servicers to provide a range of foreclosure prevention actions. The
consent order details the foreclosure prevention amount for each
servicer and describes how the actions will be credited. It also
requires the servicers to (1) submit regular reports beginning
May 15, 2013, detailing foreclosure prevention actions taken to
fulfill the obligation and (2) complete their obligation to provide
foreclosure prevention actions by January 7, 2015.

OCC delayed the initial reporting deadline to July 31, 2013, and
allowed servicers subject to the National Mortgage Settlement to
fulfill obligations under that settlement before beginning reporting
under the amended consent order. OCC did not have concerns with
this delay in reporting because each servicer has 2 years to meet
their amended consent order obligation. OCC told us that as of
January 31, 2014, all seven of the servicers with reporting
requirements had begun reporting.

As of the end of our fieldwork, OCC oversight of servicer’s
foreclosure prevention activities had not yet substantively begun.
For example, OCC has not yet conducted testing on servicer
submissions to evaluate eligibility or crediting, finalized a reporting
format, or issued any public reports related to foreclosure
prevention actions.




OCC Needs to Ensure Servicers Implement Amended Foreclosure Consent   Page 19
Orders and Act on Identified Weaknesses (OIG-14-044)
                     OCC has engaged a third party to perform testing of each
                     servicer’s foreclosure prevention activity submissions required
                     under the amended consent orders. Also, an SOW, which specifies
                     the testing to be done by the contractor, was recently issued.

                     GAO Foreclosure Review

                     In April 2014, GAO issued a report entitled Foreclosure Review:
                     Regulators Could Strengthen Oversight and Improve Transparency
                     of the Process.20 GAO reported that the regulators generally met
                     their goals for timeliness and amount of the cash payments and
                     concluded that:

                            The amended consent order process addressed some of the
                             challenges identified by regulators with the file review
                             process—for example, it provided cash payments to
                             borrowers more quickly than might have occurred had the
                             file reviews continued. In addition, through the foreclosure
                             prevention component of the amended orders, regulators
                             were able to convey their commitment to specific principles
                             to guide loss mitigation actions.

                            While regulators used the amended consent orders to
                             establish principles for foreclosure prevention activities, they
                             did not require examination teams to evaluate or test
                             servicers’ activities related to these principles. In particular,
                             they did not require evaluation or testing of servicers’
                             policies, monitoring controls, and performance measures, to
                             determine the extent to which servicers are implementing
                             these principles to provide meaningful relief to borrowers.

                            Although regulators communicated information about the
                             status and results of the cash payment component of the
                             amended consent orders, they missed opportunities to
                             communicate additional information to borrowers and the
                             public about key amended consent order processes.

                     Similarly, our audit found that OCC pursued the amendment of the
                     foreclosure related consent orders to facilitate more timely relief to
                     borrowers potentially harmed during the foreclosure process and,
20
     GAO, GAO-14-376 (Apr. 29, 2014)

                     OCC Needs to Ensure Servicers Implement Amended Foreclosure Consent   Page 20
                     Orders and Act on Identified Weaknesses (OIG-14-044)
           provided oversight of servicers’ borrower categorization and the
           payment processes. We also noted that OCC oversight of
           servicers’ foreclosure prevention actions has not yet substantively
           begun. While our audit was focused on OCC’s oversight of the
           amended consent order process, GAO’s scope was wider, including
           FRB’s oversight of the process, as well as, regulator information
           sharing and transparency.

           Based on its work, GAO made two recommendations directed to
           OCC.

                 That the Comptroller of the Currency direct examination
                  teams to take additional steps to evaluate and test servicers’
                  implementation of the foreclosure prevention principles.

                 That the Comptroller of the Currency include in forthcoming
                  reports or other public documents information on the
                  processes used to determine cash payment amounts, such
                  as the criteria servicers use to place borrowers in various
                  payment categories.

           In its response to GAO’s report, OCC stated that it included a
           requirement to evaluate and test servicers’ implementation of the
           foreclosure prevention principles in its examination plans and that
           foreclosure prevention principles will be used as considerations
           when assessing the effectiveness of servicer actions. OCC also
           stated that it will consider including additional detail about the
           categorization of borrowers in its public reports.

Recommendations
           We recommend that the Comptroller of the Currency do the
           following:

           1. Continue to work with the paying agent to ensure that errors
              and concerns are addressed so that borrowers receive the
              payments they are due.




           OCC Needs to Ensure Servicers Implement Amended Foreclosure Consent   Page 21
           Orders and Act on Identified Weaknesses (OIG-14-044)
   Management Response

   OCC has provided substantive oversight; including review and
   assessment of processes and correction of errors, of the paying
   agent to ensure borrowers receive payments consistent with
   OCC instructions. OCC will continue to provide diligent
   oversight until the QSFs are closed.

   OIG Comment

   Management’s commitment to take these actions is responsive
   to our recommendation. OCC will need to record the estimated
   date(s) for completing its planned corrective action in JAMES.

2. Determine, in conjunction with FRB, the disposition of funds
   remaining in QSFs after the distribution is complete.

   Management Response

   OCC continues to discuss options for the use of the residual
   funds in the QSFs and plans to have a decision in the near
   future.

   OIG Comment

   Management’s commitment to take these actions is responsive
   to our recommendation. OCC will need to record the estimated
   date(s) for completing its planned corrective action in JAMES.

3. Ensure that servicer system weaknesses and data limitations
   identified during OCC’s borrower categorization validation work
   are addressed in the corrective action plans developed by
   servicers in response to the original foreclosure related consent
   orders and that these corrective actions plans are implemented.

   Management Response

   OCC’s examination plan for assessing compliance with the
   consent orders includes procedures requiring examiners to test
   the effectiveness of management information systems (MIS)
   and reporting. Servicer system weaknesses and data limitations,


OCC Needs to Ensure Servicers Implement Amended Foreclosure Consent   Page 22
Orders and Act on Identified Weaknesses (OIG-14-044)
   including those identified by the independent consultants and
   our examiners, are key factors in assessing the effectiveness of
   MIS and reporting. OCC expects to complete its tests by
   November 30, 2014.

   OIG Comment

   Management’s planned corrective action is responsive to our
   recommendation. The recommendation, however, should remain
   open in JAMES until the servicers’ corrective actions plans are
   implemented.

4. Implement processes to monitor the sufficiency of foreclosure
   prevention measures taken by servicers subject to the amended
   consent orders.

   Management Response

   OCC’s examination plan for assessing compliance with the
   consent orders includes procedures requiring examiners to test
   loss mitigation and foreclosure prevention activities against
   criteria described in the orders. OCC will use the foreclosure
   prevention principles included in the amendment to the consent
   orders as considerations when assessing the effectiveness of
   these programs. OCC expects to complete its tests by
   November 30, 2014.

   OIG Comment

   Management’s planned corrective action is responsive to our
   recommendation. The recommendation, however, should remain
   open in JAMES until any needed corrections identified through
   OCC’s tests are made by the servicers.




OCC Needs to Ensure Servicers Implement Amended Foreclosure Consent   Page 23
Orders and Act on Identified Weaknesses (OIG-14-044)
                             *****

We appreciate the courtesies and cooperation provided to our staff
during the audit. If you wish to discuss the report, you may
contact me at (202) 927-0384 or James Lisle, Audit Manager, at
(202) 927-6345. Major contributors to this report are listed in
Appendix 3.



Jeffrey Dye /s/
Director, Banking Audit




OCC Needs to Ensure Servicers Implement Amended Foreclosure Consent   Page 24
Orders and Act on Identified Weaknesses (OIG-14-044)
                       Appendix 1
                       Objectives, Scope & Methodology




                       In April 2011, the Office of the Comptroller of the Currency (OCC),
                       the former Office of Thrift Supervision, and the Board of Governors
                       of the Federal Reserve System (FRB) issued foreclosure-related
                       consent orders against 14 major servicers for unsafe and unsound
                       practices in residential mortgage servicing and foreclosure
                       processing. 21 In February 2013, OCC, in conjunction with FRB,
                       amended the consent orders for 11 of these servicers of which 10
                       servicers were OCC-supervised and 1 was FRB-supervised. The
                       amended orders required that the servicers cease work on the
                       independent foreclosure reviews (IFRs) required by the original
                       orders and provide relief to potentially harmed borrowers in the
                       form of cash payments and foreclosure prevention actions. In
                       August 2013, OCC similarly amended the consent order for
                       another of the servicers bringing the number of OCC-supervised
                       servicers under amended consent orders to 11.

                       The objectives of this audit were to (1) report on the circumstances
                       and processes used to determine that the foreclosure consent
                       orders issued in April 2011 should be amended, including how the
                       settlement amounts were derived; and (2) assess OCC’s oversight
                       of servicers' compliance with the amended foreclosure consent
                       orders, including the servicers' categorization of the population of
                       borrowers due payment, the payment of funds from a Qualified
                       Settlement Fund (QSF), and the servicers' loss mitigation or other
                       foreclosure prevention actions.

                       To accomplish the audit objectives, we:

                       1. Interviewed OCC headquarters management, including the
                          Deputy Comptroller of Large Bank Supervision, Mortgage
                          Banking Lead Examiner, Senior Deputy Comptroller for
                          Enterprise Governance and Ombudsman, Deputy Chief Counsel,
                          Public Affairs Director, Assistant Director of Enforcement and
                          Compliance, and Senior Attorney Enforcement and Compliance,
                          to gain an understanding of the nature and extent of OCC
                          oversight of the amended consent order process. Topics
                          discussed included determination of settlement amounts, OCC’s

21
     Amended consent orders were issued to Bank of America, N.A.; Citibank, N.A.; HSBC Bank USA,
     N.A.; JPMorgan Chase Bank, N.A.; MetLife Bank, N.A.; PNC Bank, N.A.; U.S. Bank National
     Association and U.S. Bank National Association ND; Wells Fargo Bank, N.A.; Aurora Bank FSB;
     Sovereign Bank, N.A.; and, SunTrust Banks, Inc., SunTrust Bank and SunTrust Mortgage, Inc.

                       OCC Needs to Ensure Servicers Implement Amended Foreclosure Consent   Page 25
                       Orders and Act on Identified Weaknesses (OIG-14-044)
Appendix 1
Objectives, Scope & Methodology




   borrower categorization validation procedures, payment process
   monitoring processes, and foreclosure prevention action
   monitoring processes.

2. Reviewed the term sheet which defined the terms that the
   servicers subject to the April 2011 consent orders would have
   to agree to in order to amend the orders, the amended consent
   orders for the OCC-supervised servicers, servicer guidance,
   written examination procedures, and payment distribution plan.

3. Reviewed OCC examination workpapers related to the validation
   of the servicer’s borrower categorization at 5 of 10 OCC-
   regulated servicers subject to the amended consent orders. The
   servicers were Bank of America, N.A.; JPMorgan Chase, N.A.;
   HSBC Bank USA, N.A.; MetLife Bank, N.A.; and Sovereign
   Bank. We also interviewed OCC examiners in charge and
   examination team members at these institutions to confirm our
   understanding of the validation process.

4. Reviewed documentation related to OCC’s monitoring of the
   amended consent order payment process. These included:
   statement(s) of work between servicers and Rust Consulting,
   Inc. (Rust), the paying agent; IFR payment agreement
   procedures; the QSF account governing agreement; OCC’s
   review of borrower categorization; OCC’s October 2013 QSF
   reconciliation; various records of meetings, status and activity
   reports; and Rust borrower complaint logs.

Concurrent with our audit, the Government Accountability Office
(GAO) reviewed the amended consent order process. We
coordinated our fieldwork with GAO scheduling joint interviews and
making joint documentation requests, when possible.

We performed our audit fieldwork from April 2013 through
December 2013.

We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require
that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the


OCC Needs to Ensure Servicers Implement Amended Foreclosure Consent   Page 26
Orders and Act on Identified Weaknesses (OIG-14-044)
Appendix 1
Objectives, Scope & Methodology




evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.




OCC Needs to Ensure Servicers Implement Amended Foreclosure Consent   Page 27
Orders and Act on Identified Weaknesses (OIG-14-044)
                             Appendix 2
                             Cash Payment and Foreclosure Prevention Amounts Under the
                             Amended Foreclosure-Related Consent Orders


The following table presents the cash payment and foreclosure prevention amounts included in the amended
consent orders. The servicers are arranged by the Qualified Settlement Fund (QSF) into which their cash payment
funds were deposited. The cash deposit for a servicer may differ from these originally agreed to amounts for
various reasons including increases in deposits required by population adjustments made during the validation
process or conversion of foreclosure prevention amounts into QSF deposits.

                                                                                              Foreclosure
                                                              Cash Payment                    Prevention Amounts
                                                              Amounts per Amended             per Amended
Entity                                                        Consent Orders                  Consent Orders
QSF1
Aurora Bank, FSB                                                          $93,237,805              $149,180,488(b)
Bank of America, N.A.                                                  1,127,453,261                  1,759,125,217
Citibank, N.A.                                                            306,574,179                   486,918,687
HSBC Bank USA, N.A.                                                        96,540,359                   153,361,054
JPMorgan Chase & Co.                                                      753,250,131                 1,205,200,210
MetLife Bank, N.A.                                                         30,206,329                  48,330,126(c)
PNC Bank, N.A.                                                             69,433,224                111,093,158(c)
Sovereign Bank, N.A.                                                         6,186,992                      9,899,188
SunTrust Banks, Inc.                                                       62,555,947                   100,089,515
US Bank, N.A. and US Bank, N.A., ND                                        80,060,193                   128,096,308
Wells Fargo Bank, N.A.                                                    765,823,531                 1,225,317,650
QSF1 Total                                                           $3,391,321,951                 $5,376,611,601
QSF2
Morgan Stanley                                                            $97,000,000                 $130,000,000
The Goldman Sachs Group, Inc.                                           $135,000,000                  $195,000,000
QSF2 Total                                                              $232,000,000                  $325,000,000
Other QSFs
Ally Financial, Inc.- QSF3(d)                                           $198,077,499               $316,923,998(c)
EverBank – EB Expedited Payment Agreement
QSF(a)                                                                     37,390,450                  44,408,629(c)
Other QSFs Total                                                        $235,467,949                  $361,332,627
Grand Total – All QSFs                                               $3,858,789,900                 $6,062,944,228

Legend
a   Everbank, an OCC-regulated institution, did not settle until August 2013 and elected not to contract with Rust Consulting, Inc.
    as the payment agent. Accordingly, Everbank has established a separate settlement account named “EB Expedited Payment
    Agreement QSF” with The Huntington National Bank.
b   The foreclosure prevention action amount for this servicer was converted, as allowed by the amended consent order, into an
    additional cash deposit to the QSF.
c   The foreclosure prevention amount for this servicer was satisfied by conversion to a cash contribution for borrower counseling
    or education, as allowed by the amended consent order.
d   Ally, an FRB-regulated institution, did not settle until July 2013. Ally’s cash payment amount is deposited into a separate
    settlement account, QSF 3.


                             OCC Needs to Ensure Servicers Implement Amended Foreclosure Consent                         Page 28
                             Orders and Act on Identified Weaknesses (OIG-14-044)
Appendix 3
Independent Foreclosure Review Payment Agreement Details
as Published by OCC and FRB




     Source: OCC Website, http://www.occ.gov/topics/consumer-
     protection/foreclosure-prevention/correcting-foreclosure-practices.html


OCC Needs to Ensure Servicers Implement Amended Foreclosure Consent      Page 29
Orders and Act on Identified Weaknesses (OIG-14-044)
Appendix 4
Management Response




OCC Needs to Ensure Servicers Implement Amended Foreclosure Consent   Page 30
Orders and Act on Identified Weaknesses (OIG-14-044)
Appendix 4
Management Response




OCC Needs to Ensure Servicers Implement Amended Foreclosure Consent   Page 31
Orders and Act on Identified Weaknesses (OIG-14-044)
Appendix 5
Major Contributors to the Report




James Lisle, Audit Manager
Vicki Preston, Auditor in Charge
Virginia Shirley, Program Analyst
James Hodge, Referencer




OCC Needs to Ensure Servicers Implement Amended Foreclosure Consent   Page 32
Orders and Act on Identified Weaknesses (OIG-14-044)
Appendix 6
Report Distribution




The Department of the Treasury

   Deputy Secretary
   Office of Strategic Planning and Performance Management
   Office of the Deputy Chief Financial Officer, Risk and Control
      Group

Office of the Comptroller of the Currency

   Comptroller of the Currency
   Liaison Officer

Office of Management and Budget

   OIG Budget Examiner




OCC Needs to Ensure Servicers Implement Amended Foreclosure Consent   Page 33
Orders and Act on Identified Weaknesses (OIG-14-044)
